                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

     Case Number: 106040010                                                                  Page 1 of 1



          The National Science Foundation, OIG opened this investigation based on information obtained
          from an NSF office' during a site visit to the college2which indicated that the college was
          included on the list of award monitoring. It was discovered that there was a federal investigation
          being conducted at the college and they were on accreditation probation. Past A-133 reports had
          noted concerns with the college's financial management and also problems with the oversight of
          a federal award3.

           A review of a 2005 A-133 audit report noted that there was a discrepancy found in the college
           enrollment numbers reported to NSF in annual reports compared to enrollment numbers recorded
           at the college registrar's office. The enrollment numbers reported to NSF were higher.

         The auditor4who performed the A-133 audit was contacted and stated she believed that the
         discrepancy was due to administrative errors. She advised that the current 2006 A- 133 audit
       . report conducted indicated no similar findings. Since there appears to be no additional instances
         of discrepancies reported in enrollment numbers at the college, no further investigative leads are
         necessary.

           Accordingly, this case is closed.




I'                                                                                                             I1
 NSF OIG Form 2 (1 1/02)
